APPENDICES

1a
APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-40434
DANIEL ENRIQUE CANTÚ,
Plaintiff-Appellant
v.

JAMES M. MOODY; ERIN S. LABUZ, also known
as Erin S. Hayne; NATHAN HUSAK; DAVID DE
LOS SANTOS; RYAN PORTER; ROSA LEE
GARZA; ALFREDO BARRERA; UNITED STATES
OF AMERICA; CHRISTOPHER LEE,
Defendants-Appellees
Appeal from the United States District Court
for the Southern District of Texas

Before CLEMENT, GRAVES, and OLDHAM, Circuit
Judges.
ANDREW S. OLDHAM, Circuit Judge:
Daniel Enrique Cantú is a member of the Texas
Mexican Mafia. He says the U.S. Constitution and federal civil rights laws afford him money damages
against state and federal law enforcement officers for
claims arising from a drug bust. We disagree.

2a

I.
A.
This case arises from a transnational drug-trafficking investigation. In 2010, the federal government
began investigating the Texas Mexican Mafia. As part
of its investigation, the government identified Jesus
Rodriguez Barrientes as the gang’s leader in the Rio
Grande Valley. Working with state and local law enforcement, the FBI planned a sting operation as part
of Barrientes’s regular heroin purchases from Mexican drug smugglers.
FBI agents convinced Juan Pablo Rodriguez, a
member of the Texas Mexican Mafia, to work as an
informant. When Barrientes’s heroin shipment arrived, Rodriguez would meet the drug smugglers at
the border and then drive everyone to a drop-off location. There Rodriguez would deliver the heroin to
whomever Barrientes designated as his authorized recipient.
On the morning of August 10, 2011, things went
mostly according to plan. Rodriguez, accompanied by
an undercover police officer, drove to the Rio Grande
where he met the drug smugglers. Then, at 7:30 a.m.,
Rodriguez called Cantú and asked him to come to an
H-E-B parking lot so they could talk in person. According to Cantú, Rodriguez did not say what he wanted
to talk about.
When Cantú arrived, he parked to the left of Rodriguez’s car and rolled down his passenger-side window. Rodriguez then got out of his car, went to the
trunk, took out a cooler, and placed it through Cantú’s
open window and onto the passenger seat. “I need you
to do me a favor,” Rodriguez allegedly said. Cantú
says he had time to ask only one question—“What are

3a

you doing?”—before forty-five law enforcement officers descended on his vehicle. One of the officers, FBI
Agent David de los Santos, pulled Cantú from his car,
searched him, and placed him under arrest. The cooler
contained nearly two kilograms of heroin.
Although Cantú says he remained in his car the
whole time and never touched the cooler, two federal
agents swore otherwise in affidavits. FBI Agent
James Moody said Cantú exited his vehicle and personally took the cooler from Rodriguez’s trunk. FBI
Agent Erin LaBuz said Rodriguez handed the cooler
to Cantú, who personally placed it in his passenger
seat.
A federal grand jury indicted Cantú, Barrientes,
his wife, and two smugglers for possession of heroin
with intent to distribute and conspiracy. Barrientes,
his wife, and one of the smugglers pleaded guilty and
were sent to federal prison. Cantú elected to stand
trial. On October 31, 2013, a federal jury acquitted
him. By that time, he had spent more than two years
in jail.
B.
Cantú then sued a slew of defendants under
Bivens, the Federal Tort Claims Act, § 1983, § 1985,
and state law. In the complaint, he alleged twenty-one
claims under the Fourth Amendment, Fifth Amendment, Fourteenth Amendment, and various tort theories—like malicious prosecution, false arrest, false imprisonment, assault, civil conspiracy, conversion, and
negligence. And he offered his theory of how he went
from his bed to a grocery store to a jail cell: Forty-five
officers jeopardized a sophisticated, multi-year, multijurisdictional sting operation aimed at a transnational gang to frame an otherwise-innocent member of

4a

the Texas Mexican Mafia in an effort “to improve each
of their professional arrest and conviction rate records
against drug traffickers.” However far-fetched that
might seem, we take Cantú’s well-pleaded allegations
as true. See Ashcroft v. Iqbal, 556 U.S. 662, 680–81
(2009).
Cantú alleges he was never the intended recipient
of the heroin. He says Rodriguez, while driving to the
H-E-B, tried and failed to get in touch with the actual
recipient. So he called Cantú instead. The gravamen
of Cantú’s complaint is that officers who were privy to
Rodriguez’s audible—and Cantú’s professed ignorance about why he was being called to the grocery
store—knew Cantú was not the guy who was supposed to show up that morning. Yet they permitted
him to be arrested and then doubled down, fabricating
facts about Cantú’s behavior to create the impression
he was the guy.
After several hearings, the district court dismissed all of Cantú’s claims against all fifteen federal,
state, and county defendants. It also granted Cantú’s
motion to voluntarily dismiss (with prejudice) his
claims against the only remaining defendant—the private company that operated the prison where he was
housed before trial. The court further denied Cantú’s
request to file a Fourth Amended Complaint. It later
filed four separate dismissal orders. Cantú appealed
the orders dismissing the federal, state, and county
defendants. 1
In his notice of appeal, Cantú says “FINAL JUDGMENT
has not been entered.” But in his opening brief he argues
we have jurisdiction pursuant to a final judgment. Cantú
does not explain the discrepancy, nor do the defendants.
It’s possible Cantú thought the four dismissal orders did
not satisfy the separate-judgment requirement of Federal

1

5a

II.
In his briefs before our Court, Cantú pursues only
a subset of his claims against only a subset of the defendants—FBI Agent James Moody, FBI Agent Erin
LaBuz, FBI Agent David de los Santos, and Texas
DPS Officer Alfredo Barrera. He has forfeited everything else. See United States v. Vazquez, 899 F.3d 363,
380 n.11 (5th Cir. 2018) (holding appellant’s “failure
to clearly identify [an issue] as a potential basis for
relief forfeits the argument on appeal”).
We review the dismissal of Cantú’s claims de novo.
Causey v. Sewell Cadillac-Chevrolet, Inc., 394 F.3d
285, 288 (5th Cir. 2004). We start with his § 1985
claim against the federal officers. It fails under Federal Rule of Civil Procedure 12(b)(6). Second, we address his § 1983 claims against Barrera. They fail under the same standard. Third, we hold the purported

Rule of Civil Procedure 58(a). But it doesn’t matter that
each “order [was] denominat[ed] as an ‘order,’ rather than
a ‘judgment.’” Local Union No. 1992 of Int’l Bhd. of Elec.
Workers v. Okonite Co., 358 F.3d 278, 285 (3d Cir. 2004).
And in all events, parties are “free to waive” Rule 58, as
they have here. Bankers Tr. Co. v. Mallis, 435 U.S. 381, 384
(1978); see also FED. R. APP. P. 4(a)(7)(B); Orr v. Plumb,
884 F.3d 923, 931 (9th Cir. 2018). The real restriction on
our jurisdiction is § 1291, which is entirely distinct from
Rule 58(a). See Firestone Tire & Rubber Co. v. Risjord, 449
U.S. 368, 379 (1981); 11 CHARLES ALAN WRIGHT ET
AL., FEDERAL PRACTICE & PROCEDURE § 2785 (3d
ed. 2019) (“Rule 58 states how a judgment is entered. It
does not speak to whether a judgment entered in this fashion is a ‘final judgment’ for purposes of appeal.”). Like the
parties, we have no doubt the district court’s dismissal orders constitute its “final decision” under § 1291.

6a

Bivens claim against Moody and LaBuz is not cognizable.
A.
Cantú alleges the federal defendants—Moody, LaBuz, and de los Santos—conspired to violate his civil
rights under 42 U.S.C. § 1985(3). But he has two problems. Under our precedent, § 1985(3) does not cover
every kind of defendant. And its plain text doesn’t
cover every kind of conspiracy.
Our precedent holds § 1985(3) does not apply to
federal officers. In Mack v. Alexander, 575 F.2d 488
(5th Cir. 1978) (per curiam), we concluded § 1983 and
§ 1985 “provide a remedy for deprivation of rights under color of state law and do not apply when the defendants are acting under color of federal law.” Id. at
489; accord Bethea v. Reid, 445 F.2d 1163, 1164 (3d
Cir. 1971). Other circuits have criticized that holding
for failing to grapple with Supreme Court precedent.
See, e.g., Iqbal v. Hasty, 490 F.3d 143, 176 n.13 (2d
Cir. 2007), rev’d on other grounds sub nom. Ashcroft v.
Iqbal, 556 U.S. 662 (2009); Ogden v. United States,
758 F.2d 1168, 1175 n.3 (7th Cir. 1985). And the Supreme Court recently assumed § 1985(3) applies to
federal officers. See Ziglar v. Abbasi, 137 S. Ct. 1843,
1865–69 (2017). Mack may not have aged well, but we
need not decide whether it remains binding on us.
Even if we were inclined to ignore Mack, Cantú’s
claim would fail for an independent reason. The relevant text of § 1985(3) criminalizes only conspiracies
that involve depriving someone of “equal protection of
the laws”or “equal privileges and immunities under
the laws.” 42 U.S.C. § 1985(3); see Griffin v. Breckenridge, 403 U.S. 88, 102–03 (1971). This kind of con-

7a

spiracy requires some form of class-based discrimination. United Bhd. of Carpenters & Joiners of Am., Local 610, AFL-CIO v. Scott, 463 U.S. 825, 834–35
(1983).
Cantú says “he belongs to a class of individuals
who have felony convictions and/or were previously
incarcerated.” But the Supreme “Court . . . has never
held that nonracial animus is sufficient.” Newberry v.
E. Tex. State Univ., 161 F.3d 276, 281 n.2 (5th Cir.
1998). And we have held racial animus is required:
“[I]n this circuit . . . the only conspiracies actionable
under section 1985(3) are those motivated by racial
animus.” Deubert v. Gulf Fed. Sav. Bank, 820 F.2d
754, 757 (5th Cir. 1987); see also Bray v. Alexandria
Women’s Health Clinic, 506 U.S. 263, 269–74 (1993);
Scott, 463 U.S. at 835–38; Griffin, 403 U.S. at 104–05
(noting that § 1985(3) was passed pursuant to the
Thirteenth Amendment).
Even assuming § 1985(3) covers Cantú’s proffered
class—convicted felons—Cantú’s claims still can’t survive a Rule 12(b)(6) motion. First, Cantú can’t cross
from “the factually neutral [to] the factually suggestive” because he doesn’t link his conspiracy allegations to his status. Bell Atl. Corp. v. Twombly, 550
U.S. 544, 557 n.5 (2007). At most, he alleges Moody
and LaBuz were aware of his prior felony conviction.
But the rest of his allegations suggest officers fabricated evidence against him to save the sting operation. He does not allege Moody and LaBuz’s motivations were “directed specifically at [felons] as a class”
or that their actions were motivated “by reason of” his
prior conviction. Bray, 506 U.S. at 270. Second, Cantú
can’t cross from “the conclusory [to] the factual.”
Twombly, 550 U.S. at 557 n.5. His allegation that
Moody and LaBuz “[d]iscussed and willfully and

8a

knowingly agreed with other DEFENDANTS to fabricate evidence . . . in order to have [Cantú] convicted”
is conclusory. It amounts to “nothing more than a formulaic recitation of the elements” of his claim. Iqbal,
556 U.S. at 681 (quotation omitted).
There’s an even easier answer for Agent de los
Santos. Cantú singles him out as the officer who removed Cantú from his vehicle, arrested and searched
him, and then drove him to the FBI building. Cantú
makes no allegation—not even a conclusory one—that
de los Santos formed any kind of agreement with
Moody, LaBuz, or anyone else. He doesn’t even allege
that de los Santos was privy to Rodriguez’s last-minute change of plans to call Cantú. By Cantú’s own
account, de los Santos was simply the tip of the spear
in the final phase of the sting operation. The district
court was correct to dismiss the § 1985(3) claims.
B.
Cantú presses several § 1983 claims against
Texas DPS Officer Barrera. First, he argues Barrera
conspired to violate Cantú’s civil rights. He alleges
Barrera helped federal officers conduct the larger investigation and identified someone other than Cantú
as “the person to receive the heroin” on the morning
of the sting operation. As with his § 1985(3) claim
against de los Santos, however, Cantú nowhere alleges Barrera formed any kind of agreement with anyone. Nor does he say Barrera learned about what
transpired on the phone call between Rodriguez and
Cantú.
Next, Cantú argues Barrera maliciously prosecuted him in violation of the Fourth Amendment and
fabricated evidence against him in violation of the

9a

Fourth and Fourteenth Amendments. 2 Both claims
against Barrera fail for the same reason the conspiracy claim does. Cantú claims Barrera “[m]aliciously
initiated a criminal case against [him] . . . without
probable cause.” He also claims Barrera intentionally
or recklessly falsified facts “in order to fabricate evidence and/or establish probable cause.” These are all
conclusions without any factual allegations to support
them. See Iqbal, 556 U.S. at 681. Cantú never says
how Barrera falsified evidence or participated in the

Litigants (and courts) often write and speak about § 1983
claims as if the plaintiff asserts a common-law tort action,
like malicious prosecution. This habit is not a profile in precision. In a § 1983 case, the plaintiff must assert someone
violated the Constitution or other federal law. See 42
U.S.C. § 1983. And we have no federal general common
law. Erie R.R. v. Tompkins, 304 U.S. 64, 78 (1938). That’s
why “[t]he first step in any [§ 1983] claim is to identify the
specific constitutional right allegedly infringed.” Albright
v. Oliver, 510 U.S. 266, 271 (1994) (plurality opinion); see
also Castellano v. Fragozo, 352 F.3d 939, 945 (5th Cir.
2003) (en banc) (holding “no such freestanding constitutional right to be free from malicious prosecution exists”).
Courts consider common law tort analogues to constitutional claims because those analogues may furnish things
like the accrual rules for the applicable limitations period.
See Manuel v. City of Joliet, 137 S. Ct. 911, 920 (2017) (“In
defining the contours and prerequisites of a § 1983 claim,
including its rule of accrual, courts are to look first to the
common law of torts.”). Although Cantú brings a “fabrication of evidence” claim and a “malicious prosecution” claim,
he is really arguing Barrera violated the Fourth Amendment in two different ways. See id. at 921–22 (recognizing
the claim fell under the Fourth Amendment regardless of
whether it should be likened to malicious prosecution or
false arrest).
2

10a

decision to prosecute him. What’s more, his only concrete allegations point the other way because Barrera
briefed investigators on nabbing someone else—the
unknown intended recipient.
We need not decide whether Cantú can bring a
separately cognizable Fourteenth Amendment claim
for fabrication of evidence against Barrera after Manuel v. City of Joliet, 137 S. Ct. 911 (2017), and Jauch
v. Choctaw County, 874 F.3d 425 (5th Cir. 2017). It’s
unclear whether he appealed or forfeited that claim.
And his allegations are conclusory and hence insufficient in any event.
C.
Cantú also brings a would-be cause of action
against Moody and LaBuz under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics,
403 U.S. 388 (1971). He says they violated the Fourth
Amendment by fabricating evidence against him. 3
From a pleading standpoint, Cantú’s strongest allegations are that Moody and LaBuz lied to justify seizing
him. But Bivens does not provide a vehicle to bring
that claim.
1.
As the Supreme Court recently reminded us,
Bivens is the byproduct of an “ancien regime.” Ziglar
Cantú also sued Moody and LaBuz under the FifthAmendment-by-way-of-Bivens. We reject that claim for the
same reason we reject his Fourteenth Amendment claim
against Barrera: It is unclear whether he appealed the
Fifth Amendment claim at all; the phrase “Fifth Amendment” appears nowhere in the argument of his opening
brief. And his allegations to support that claim are conclusory in all events.
3

11a

v. Abbasi, 137 S. Ct. 1843, 1855 (2017) (quotation
omitted). In 1971, the Court recognized an implied
cause of action to sue federal officers for violating an
arrestee’s “rights of privacy” by “manacl[ing] petitioner in front of his wife and children,” “threaten[ing]
to arrest the entire family,” and strip searching him.
Bivens, 403 U.S. at 389–90. In the next nine years, the
Court recognized two more implied causes of action
under Bivens: a Fifth Amendment equal protection
claim for employment discrimination by a congressman, see Davis v. Passman, 442 U.S. 228 (1979), and
an Eighth Amendment claim for inadequate medical
care by federal jailers, see Carlson v. Green, 446 U.S.
14 (1980).
Since 1980, however, “the Court has refused”
every Bivens claim presented to it. Abbasi, 137 S. Ct.
at 1857; see also ibid. (collecting cases). The Court has
emphasized that Bivens, Davis, and Carlson remain
good law. See id. at 1856–57. At the same time, “it is
possible that the analysis in the Court’s three Bivens
cases might have been different if they were decided
today.” Id. at 1856. And it has admonished us to exercise “caution” in the “disfavored judicial activity” of extending Bivens to any new set of facts. Id. at 1857
(quotations omitted).
So, before allowing Cantú to sue under Bivens, we
must ask two questions. First, do Cantú’s claims fall
into one of the three existing Bivens actions? Second,
if not, should we recognize a new Bivens action here?
The answer to both questions is no.
Cantú purports to address the first question. And
he thinks he’s home free because his malicious-prosecution-type-claim alleges a violation of his Fourth
Amendment right to be free from unlawful seizures—
the same right recognized in Bivens. That’s wrong.

12a

Courts do not define a Bivens cause of action at the
level of “the Fourth Amendment” or even at the level
of “the unreasonable-searches-and-seizures clause.”
See FDIC v. Meyer, 510 U.S. 471, 484 n.9 (1994).
Here’s an example. No one thinks Davis—which
permitted a congressional employee to sue for unlawful termination in violation of the Due Process
Clause—means the entirety of the Fifth Amendment’s
Due Process Clause is fair game in a Bivens action.
The Supreme Court rejected a claim under the same
clause of the same amendment nine years later. See
Schweiker v. Chilicky, 487 U.S. 412, 420 (1988) (denying a Bivens action under the Fifth Amendment’s Due
Process Clause for wrongful denial of Social Security
disability benefits). Not even the Schweiker dissenters
suggested Davis settled the question before the Court.
See id. at 431–32 (Brennan, J., dissenting).
What if a plaintiff asserts a violation of the same
clause of the same amendment in the same way? That
still doesn’t cut it. In Chappell v. Wallace, 462 U.S.
296 (1983), the Supreme Court rejected a Fifth
Amendment Due Process claim for unlawful termination (the claim at issue in Davis) because the plaintiff
was a military servicemember rather than a congressional employee. Id. at 305. The Court has done the
same thing in the Eighth Amendment cruel-and-unusual-punishment context. Compare Carlson, 446 U.S.
at 17–18 (recognizing Bivens action—against federal
prison officials—for failure to provide medical treatment), with Corr. Servs. Corp. v. Malesko, 534 U.S. 61,
74 (2001) (rejecting Bivens action—against private
prison officials—for failure to provide medical treatment). Naturally, these principles apply in the Fourth
Amendment context too. See, e.g., Alvarez v. ICE, 818
F.3d 1194, 1199, 1206 (11th Cir. 2016) (treating plaintiff’s Bivens claim for unreasonable seizure as a “new”

13a

one); id. at 1218 n.12 (Pryor, J., concurring in part and
dissenting in part) (same); De La Paz v. Coy, 786 F.3d
367, 375 (5th Cir. 2015) (same); cf. Arevalo v. Woods,
811 F.2d 487, 489–90 (9th Cir. 1987) (barring plaintiff’s Bivens claim for unreasonable search and seizure).
The Supreme Court recently addressed this
threshold question. And it rejected just this sort of
“same right” reasoning. In Abbasi, the Second Circuit
had created a two-part test to determine whether a
Bivens claim was novel: “First, it asked whether the
asserted constitutional right was at issue in a previous Bivens case. Second, it asked whether the mechanism of injury was the same mechanism of injury in a
previous Bivens case.” 137 S. Ct. at 1859 (citation
omitted); see Turkmen v. Hasty, 789 F.3d 218, 235 (2d
Cir. 2015) (concluding plaintiffs’ condition-of-confinement claim “stands firmly within a familiar Bivens
context”). The Court rejected that approach, pointing
to Chappell and Malesko. “The proper test,” it said, is
simply whether “the case is different in a meaningful
way from previous Bivens cases.” Abbasi, 137 S. Ct. at
1859.
The Court then provided a non-exhaustive list of
“differences that are meaningful enough to make a
given context a new one”:
A case might differ in a meaningful way because of [1] the rank of the officers involved;
[2] the constitutional right at issue; [3] the
generality or specificity of the official action;
[4] the extent of judicial guidance as to how an
officer should respond to the problem or emergency to be confronted; [5] the statutory or
other legal mandate under which the officer

14a

was operating; [6] the risk of disruptive intrusion by the Judiciary into the functioning of
other branches; or [7] the presence of potential
special factors that previous Bivens cases did
not consider.
Id. at 1859–60. In the wake of Abbasi, our Court and
at least one of our sister circuits have rejected new
Fourth Amendment claims under Bivens. See Hernandez v. Mesa, 885 F.3d 811, 816–17 (5th Cir. 2018) (en
banc); Tun-Cos v. Perrotte, 922 F.3d 514, 517–18 (4th
Cir. 2019).
2.
By any measure, Cantú’s claims are meaningfully
different from the Fourth Amendment claim at issue
in Bivens. He does not allege the officers entered his
home without a warrant or violated his rights of privacy. Rather, Cantú alleges Moody and LaBuz violated the Fourth Amendment by falsely stating in affidavits that Cantú willingly took possession of the
cooler . . . to suggest he knowingly participated in a
drug transaction . . . to induce prosecutors to charge
him . . . to cause Cantú to be seized. See Wilkie v. Robbins, 551 U.S. 537, 552 n.6 (2007). This claim involves
different conduct by different officers from a different
agency. The officers’ alleged conduct is specific in one
sense: They allegedly falsified affidavits. But it’s general in another: Cantú claims Moody and LaBuz induced prosecutors to charge him without any basis,
which led to unjustified detention. The connection between the officers’ conduct and the injury thus involves intellectual leaps that a textbook forcible seizure never does. See Hartman v. Moore, 547 U.S. 250,
259–62 (2006). “Judicial guidance” differs across the
various kinds of Fourth Amendment violations—like
seizures by deadly force, searches by wiretap, Terry

15a

stops, executions of warrants, seizures without legal
process (“false arrest”), seizures with wrongful legal
process (“malicious prosecution”), etc. This is therefore a new context, and Cantú’s claims cannot be shoehorned into Bivens, Davis, or Carlson.
The second question is whether we should engage
in the “disfavored judicial activity” of recognizing a
new Bivens action. Id. at 1857 (quotation omitted).
Again, no. There are legion “special factors” counseling that result. One is the existence of a statutory
scheme for torts committed by federal officers. See 28
U.S.C. § 2680(h); Abbasi, 137 S. Ct. at 1858 (noting
“that alone may limit the power of the Judiciary to infer a new Bivens cause of action”). Another is the
length of time Congress has gone without statutorily
creating a Bivens-type remedy for this context. Because Congress has long been on notice that the Supreme Court is disinclined to extend Bivens to new
contexts, see Abbasi, 137 S. Ct. at 1857, its “failure to
provide a damages remedy” here suggests “more than
mere oversight,” id. at 1862; see also De La Paz, 786
F.3d at 377 (noting Congress had not created a damages remedy against immigration agents despite legislative attention to immigration matters).
A final special factor counseling hesitation is the
nature of the underlying federal law enforcement activity. While Bivens involved an investigation into
seemingly local conduct, this case involves a multijurisdictional investigation into transnational organized crime committed by a violent gang that has
wreaked havoc along our border with Mexico. This
case therefore implicates the security of our international border. Cf. Abassi, 137 S. Ct. at 1861 (identifying national security as a special factor); Meshal v.
Higgenbotham, 804 F.3d 417, 430–31 (D.C. Cir. 2015)
(Kavanaugh, J., concurring) (same). If members of the

16a

Texas Mexican Mafia want a damages suit—including
potentially burdensome discovery—regarding complicated investigations such as this one, that request
must be made to Congress not the courts. See Abbasi,
137 S. Ct. at 1860–61 (discussing discovery and litigation costs as a special factor).
In the face of these considerations, “courts may
not create [a cause of action], no matter how desirable
that might be as a policy matter.” Alexander v. Sandoval, 532 U.S. 275, 286–87 (2001); see also Malesko,
534 U.S. at 75 (Scalia, J., concurring). 4
III.
Finally, Cantú appeals the denial of leave to file a
fourth amended complaint. The district court denied
leave because Cantú already had numerous opportunities to amend his complaint, and the proposed
amended complaint contained claims that Cantú’s
counsel previously agreed to remove. See Foman v.
Davis, 371 U.S. 178, 182 (1962) (noting that “undue
Our dissenting colleague takes issue with our analysis in
two ways. First, Judge Graves notes this case is factually
distinguishable from Abbasi. See post, at 15–17 (Graves, J.,
dissenting in part). But mere distinguishability is irrelevant; were it otherwise, federal courts would be free to infer
Bivens actions in any case not involving post-9/11 detention policies. And we know that’s wrong. See Abbasi, 137 S.
Ct. at 1857 (noting such lawmaking is a “‘disfavored’ judicial activity”). Second, Judge Graves notes the FTCA might
not provide a remedy to Cantú. See post, at 17 (Graves, J.,
dissenting in part). Fair enough. But the Supreme Court
has said that possibility is insufficient to warrant the judicial creation of a Bivens action—after all, it could be evidence that Congress chose not to afford a remedy. See Abbasi, 137 S. Ct. at 1858–59, 1865.

4

17a

delay,” “bad faith,” “dilatory motive,” and “repeated
failure to cure deficiencies by amendments previously
allowed” are grounds for denying leave to amend a
complaint). The district court did not abuse its discretion in denying Cantú’s motion.
AFFIRMED.

18a

JAMES E. GRAVES, JR., Circuit Judge, dissenting in
part:
I respectfully dissent from the majority’s opinion
insofar as it concludes there is no Bivens cause of action for fabrication of evidence.
I agree with the majority’s conclusion that Cantú’s
claim of malicious prosecution/fabrication of evidence
presents a “new context” for a Bivens claim under Supreme Court precedent. However, while the majority
concludes several special factors counsel against recognizing a new claim, I would reach the opposite conclusion and determine no such factors dictate against
recognizing a new Bivens action here.
Abbasi instructs courts to focus the “special factors” inquiry “on maintaining the separation of powers: ‘separation-of-powers principles are or should be
central to the analysis.’” Hernandez v. Mesa, 885 F.3d
811, 818 (5th Cir. 2018) (en banc) (quoting Ziglar v.
Abbasi, 137 S. Ct. 1843, 1857 (2017)), cert. granted,
No. 17-1678, 2019 WL 2257285 (U.S. May 28, 2019).
Essentially, courts need to consider whether “there
are sound reasons to think Congress might doubt the
efficacy or necessity of a damages remedy as part of
the system for enforcing the law and correcting a
wrong.” Abassi, 137 S. Ct. at 1858. If there are, “the
courts must refrain from creating the remedy in order
to respect the role of Congress in determining the nature and extent of federal-court jurisdiction under Article III.” Id.
Some of the factors the Supreme Court considered
in Abassi which counseled against recognizing a
Bivens action were that the plaintiffs were suing high
level Executive Officials for the acts of their subordinates, the lawsuit challenged “the formulation and

19a

implementation of a general policy,” and the claim implicated “sensitive issues of national security.” Id. at
1860–61. These factors meant the plaintiffs were going beyond challenging “standard ‘law enforcement
operations’” and were challenging “major elements of
the Government’s whole response to the September 11
attacks.” Id. at 1861. As a result, the Court found it
prudent to decline to create a new claim and instead
deferred to the Executive Branch’s authority in military and national security affairs, as well as to Congress’ ability to designate a specific channel for the
courts to review such authority. Id.
No such concerns are present in this case. Here,
Cantú seeks to hold accountable two individual law
enforcement officers who allegedly lied to support a
finding of probable cause and a grand jury indictment,
thereby leading to his prosecution and two years of
imprisonment. This is exactly the type of run-of-themill “law enforcement overreach” claim Abassi emphasized could still be recognized under Bivens.
Abassi, 137 S. Ct. at 1862. In the instant case, there
are no national security concerns, 1 no broad governmental policies at stake, and no high-level executive

While the majority characterizes the investigation at issue in this case as a multijurisdictional investigation into
transnational organized crime necessarily involving the security of our international border, the Government has not
argued that this case implicates any national security interests. In fact, the Government’s main argument against
recognizing a Bivens action here is that Cantú could have
filed suit under the Federal Tort Claims Act. See discussion
infra. Given the Government’s ability to articulate its own
interests, I would decline to create a national security concern where the Government has not alleged one.

1

20a

officials being sued for the actions of their subordinates. Nor is the giving of affidavits by law enforcement officials a heavily regulated area closely overseen by Congress so as to suggest Congress prefers
courts not to interfere. See Hernandez, 885 F.3d at 820
(noting Congressional silence may be relevant “especially where ‘Congressional interest’ in an issue ‘has
been frequent and intense’” (quoting Abassi, 137 S.Ct.
at 1862)). Lastly, the legal standards for adjudicating
this type of claim are well established and easily administrable,” meaning it is a “workable cause of action.” Wilkie v. Robbins, 551 U.S. 537, 555 (2007); see
also Lanuza v. Love, 899 F.3d 1019, 1033 (9th Cir.
2018) (discussing judicial administrability of a Bivens
claim for fabrication of evidence in an immigration
context); Engel v. Buchan, 710 F.3d 698, 708 (7th Cir.
2013) (discussing judicial administrability of a Bivens
claims for Brady violations).
Moreover, while the Government argues that
Cantú may have other remedies available through the
Federal Tort Claims Act (“FTCA”), the FTCA does not
provide remedies for constitutional violations. See 28
U.S.C. § 2679(b)(2)(A) (stating FTCA “does not extend
or apply to a civil action against an employee of the
Government . . . which is brought for a violation of the
Constitution of the United States . . . .”). Nor would an
injunction here remedy the alleged constitutional violation, assuming Cantú even had standing to pursue
one. This is essentially a “damages or nothing” case,
where the very nature of Cantú’s allegations “are difficult to address except by way of damages after the
fact.” Abassi, 137 S. Ct. at 1862. While recognizing a
Bivens claim may be a “disfavored judicial remedy”
these days, it is still a judicial remedy, available in
certain circumstances where special factors are not
present. See Lanuza, 899 F.3d at 1021 (recognizing

21a

the availability of new Bivens claims even after
Abassi). Such is the case here.
Having recognized a Bivens cause of action, I
would then conclude that Cantú adequately alleged
such a claim. Accordingly, I dissent from the majority’s opinion on this issue.

22a
APPENDIX B

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MC ALLEN DIVISION
DANIEL ENRIQUE
CANTU,
Plaintiff,
vs.
JAMES M MOODY,
ET AL.,
Defendants.

) CASE NO: 7:15-CV) 00354
CIVIL
)
)
McAllen, Texas
)
)
Thursday, July 7, 2016
)
(4:11 p.m. to 4:53 p.m.)
)
)

HEARING RE: MOTION TO DISMISS
BEFORE THE HONORABLE RICARDO H.
HINOJOSA,
CHIEF UNITED STATES DISTRICT JUDGE

APPEARANCES: Continued (Next Page)
For Plaintiff:

Court
Recorder:
Transcribed by:

JEROLD D. FRIEDMAN, ESQ.
Law Office of Jerold D.
Friedman
17515 Spring-Cypress Road,
Suite C-360
Cypress, TX 77429
Orlando Casas
Exceptional Reporting Services,
Inc.
P.O. Box 18668

23a

Corpus Christi, TX 78480-8668
(361) 949-2988
APPEARANCES
FOR:

(Continued)

Federal
Defendants:

DAVID L. GUERRA, ESQ.
Office of the U.S. Attorney
1701 W. Highway 83,
Suite 600
McAllen, TX 78501

Hidalgo County
and Sheriff
Defendants:

REX N. LEACH, ESQ.
Atlas Hall & Rodriguez, LLP
818 Pecan
McAllen, TX 78501

Daniel Martinez, SETH B. DENNIS, ESQ.
Donicio Arigullin, Office of the Texas Attorney
Alfredo Barrera: General
P. O. Box 12548
Austin, TX 78711-2528
LCS:

RICHARD W. CREWS, JR.,
ESQ.
Hartline Dacus et al.
800 N. Shoreline, Suite 2000
North Tower
Corpus Christi, TX 78401

24a
McAllen, Texas; Thursday, July 7, 2016; 4:11 p.m.
(Call to order)

THE COURT: Please be seated. Civil Action
Number M-15-354, Daniel Enrique Cantu versus
James M. Moody and others. And can we have announcements for all the parties as to who’s here?
MR. FRIEDMAN: Jerold Friedman for the
Plaintiff.
MR. GUERRA: David Guerra here on behalf of
the Federal Defendants.
***
THE COURT: Okay, the next is the Federal Defendants’ motions to dismiss and/or for summary
judgment, which is Docket Entry Number 60. Go
ahead, Mr. Guerra.
MR. GUERRA: Your Honor, I will start also with
the limitations defense because I think that does allow
the Court to focus on something that potentially could
wipe out the entire panoply of claims against the
United States and the other individual Federal Defendants. I think it’s -THE COURT: Well, I -MR. GUERRA: -- it turns on -THE COURT: -- didn’t hear that from the State
Defendants, but you think the statute of limitations
would take out everything?
MR. GUERRA: I believe it does resolve everything because everything has a two-year limitations
appropriate to it. The only disputed fact regarding
that two-year -- the application of that two-year statute of limitations and the -and its application here is
the one that was raised in response. He said he was--

25a

THE COURT: Well, that he was incarcerated and
that therefore -MR. GUERRA: That he was incarcerated and -THE COURT: -- that he was disabled from that.
MR. GUERRA: -- somehow he was not able to access legal counsel, that we somehow interfered with
his ability. I would point out first of all, your Honor,
there’s no affidavit or other testimony to that effect.
And while this is at the early stage, we did submit and
we are submitting to the Court, and we pled alternatively, a summary judgment request here. We -- and
so if the contention is that he was prohibited in some
way, I think for a lawyer to stand there and say that
without any support whatsoever for it is not going to
I think meet the standard that’s required in this situation. But assuming -setting aside that problem, we’re
not -- the Southern District of Texas has been accused
of a lot of things in terms of perhaps the heat and
other problems with -- but no one’s ever accused the
legal system down here, at least on the Federal side,
of being comparable to Uzbekistan. This man had a
lawyer. He met with him frequently. He was before
the Court numerous times for various hearings during
his criminal cases. There is no reason why in the world
he couldn’t have said, I need you -- they’re keeping me
from getting a civil lawyer in a civil case, I need you
to help me in this regard. And he could have gotten
that help. It’s not as though we had him literally in a
case somewhere in a place where he had an access to
anybody outside that limited area. He frequently met
with a lawyer, and it would have been very easy for
him to say “help me.” Now, if it -- I have no doubt that
from time to time he may have grumbled to the court,
as he did once when he was pro se in this case, that I
can’t find a civil lawyer to take my case. But that’s not

26a

the same thing as saying the United States government somehow prohibited me and these individual
Defendants somehow prohibited me from accessing a
civil lawyer. That -- one is truly a basis arguably for
somehow implying the government is at fault and
therefore should be estopped from asserting a defense
if the government literally did keep him in a situation,
in a place where he didn’t have access to the outside.
The other is totally unrelated to us. The fact he can’t
find a lawyer to take his -- a frivolous case, which we
believe it to be in this situation, is not the responsibility of the Federal government and we should not be
estopped from asserting the two-year statute of limitations because of that. And so as I said, your Honor
knows that he was here before the Court many times
with his criminal lawyer and so he had access to a lawyer. And there’s no reason why he couldn’t at some
point. And as I said, there’s no evidence that we somehow burned his letters that he’s tried to send out, that
we -- he’s making assumptions about that. Again, but
you cannot base -in the absence of even an affidavit -even if there were an affidavit, it’s an assumption that
has no underlying basis in fact. And so I think that
limitations should eliminate all these claims on every
level, the tort claims against the United States,
whether there are Bivens cases against the individuals, all of them are subject to the statute of limitations
and all - - and this suit was filed long after it was expired; except that he could argue estoppel because we
kept him somehow from doing that, and I don’t think
there’s any evidence of that. And, in fact, the evidence
the Court can take judicial notice of, it was to the contrary, that he was frequently in contact with an attorney and could have raised that issue or concern and
gotten himself a lawyer if one were willing to take his
case.

27a

Now, we’ve also argued -- in addition to the statute of limitations, we have argued as well that initially the pleadings here are so deficient that the -under the recent case law, the Supreme Court addressing similar situations, that the Court should not
allow this level of generality and this level of conclusory sort of allegations to survive, in light of those
cases. There was a time when you could just say, as
the Plaintiff has in this case, well, we’ve made allegations. The Court now says you can’t do that anymore,
you’ve got to be much more specific. Some of these Defendants, there isn’t -- they haven’t been -- for example, there’s a -- the one female Defendant in this case,
we don’t know why she’s in there.
She’s not law enforcement in the sense of actually
having done anything with the arrest. We -- I don’t
know that she had any role whatsoever. And there’s
nothing in the specific complaint that identifies how
she specific -- instead, what we have is a bunch of allegations, the Defendants did this, Defendants did
that. At best, he breaks it down by Federal Defendants and maybe County Defendants or State Defendants. But to survive a Bivens claim, a plaintiff must
show that each individual actor that they’re seeking
to bring before the Court somehow did something that
violated someone’s constitutional rights. And I don’t
think these pleadings come anywhere near satisfying
that standard that’s required under the Supreme
Court cases of Iqbal and -THE COURT: Twombly.
MR. GUERRA: And Twombly. So I -- it sounds
like a technicality, your Honor, but I don’t believe so
in this case. I think it’s important that Defendants
right -- because these are individuals who have, you
know, bank accounts could potentially -- their lives

28a

have been disrupted and will be disrupted as long as
this case is pending out there. And, again, if this was
a legitimate case where you have violence against
someone or something has been done that warrants a
constitute (sic) claim, that’s the cost of doing business.
But in this case here where we have pleadings that
just throw out generalities like this, I don’t think it’s
fair that these individuals should be subjected to the
litigation that they’re facing now in light of these very
conclusory and general allegations of wrongdoing. It
really is a case of he had one - - initially filed a suit
against Mr. Moody and that didn’t go very far because
it’s clear Mr. Moody had nothing to do with the Grand
Jury and subsequent proceedings in this case.
There’s an affidavit to that effect. The only thing
he ever had anything to do with was is one or two days
when the arrest -- he didn’t arrest the Defendant, but
he supplied a statement in support of the complaint,
the criminal complaint. But subsequent to that, about
ten days later, there was a Grand Jury presentation,
a Grand Jury indictment, that he had no role whatsoever in. And there’s no dispute about that. He didn’t
come in with any affidavits that said to the contrary.
And so we have a situation where he originally sued
Moody and probably realized, well, I can’t go anywhere with that and so now we’ve got it against a
bunch of other people. But we do have, again, a Grand
Jury, a Grand Jury that did step in and make this -now, he refers to Labuz making some false statements. But Labuz has submitted an affidavit in this
case where she denies that. And if you read the actual
affidavit that they’re claiming supported that, which
is in the public records, it can be accessed through
PACER, it’s clear she doesn’t make a false statement.
She said that it was put inside the car but she didn’t
say it was put inside the car by this defendant. In any

29a

event, she states affirmatively that that was not presented to the Grand Jury, that no statement about
that was presented to the Grand Jury. And so it’s kind
of a rabbit -- false, I don’t know, expression. I’m getting so old that sometimes my analogies get confused.
But the Court -THE COURT: I think you mean to say rabbit
trail.
MR. GUERRA: Rabbit trail. He’s trying to get off
on a rabbit trail which isn’t really there. So I also don’t
-- we also have raised, but I don’t know that we need
to initially get into the details, but I think that the
discretionary function exception does apply here because there is a recent case law, Judge Atlas in Houston, applying in a similar context did say that while
the law is somewhat unsettled on some of these issues,
in the end she says the Fifth Circuit -- and this was a
decision entered I think within a few months ago -that in this circuit at least, even assuming the unsettled aspects are in favor of the defendant, that discretionary function would apply to an incarceration and
a prosecution -- in that case it was actually an incarceration, false arrest, and false imprisonment. And so
I do feel -- we haven’t talked about it and I didn’t -and I don’t necessarily want to go into details, but say
I think it does apply, your Honor.
The last thing I would say with regard to the issue
of what occurred while he was incarcerated, the claim
is that his air conditioner would cut off from time to
time and that produced an intolerably hot environment and deprived him of his -- of something. I’m not
sure what because actually in terms of the Bivens
cases, none of those deal with his incarceration. Those
all deal with more generic claims for the prosecution
or with the arrest or whatever. The aspect associated

30a

with the incarceration in that facility that didn’t allegedly have air conditioning from time to time, that
all falls under the -- in terms of the Federal Defendants, the claim against the United States under the
Tort Claims Act. In order to have a claim under the
Tort Claims Act, you have to have a Federal employee
acting in the course and scope of employment. And in
this case we have a separate corporate entity, independent contractor, providing these services. And under the case law cited in the brief, the United States
isn’t the proper defendant in that case. The proper defendant is the contractor who allegedly didn’t have the
air conditioning going at all times and produced the
unpleasant environment. So I do feel like the entire
case can and should be disposed of at this point, and
that we have presented valid graces for each of the
points he’s raised. And I don’t think the response that
we somehow did something that was so terrible that
the limitations should be ignored is appropriate here
when we don’t have any sort of affidavit or statement
from the defendant and when we don’t have any true
evidence of that. In fact, it’s contrary to the -- what the
Court knows to be the situation. His frequent communications with an attorney representing him in the
criminal case and his ability to communicate any concerns about that to that lawyer that would have allowed him to assert his rights within the limitations
period.
THE COURT: Do you want to respond to the Federal motion, Mr. Friedman?
MR. FRIEDMAN:
***
All right, so with Federal Defendants, first, of
course I take issue with what he says about us not
having a legitimate case. We know that my client was

31a

acquitted, we know that he spent more than two years
in Federal custody. And we allege with facts that the
Federal Defendants knew he committed no crime. So
putting my client in jeopardy of 25 years to life, I’m
sorry if their clients are inconvenienced by a lawsuit,
but 25 years to life, this is not comparable.
So this is motion for dismissal and all affidavits
and all external evidence should be struck. So anything about what any of the Defendants say and any
of the Plaintiff’s failure to make a affidavit I think is
a rabbit trail.
On the -- on all of the Federal tort claims, statute
of limitations are not violated on Federal tort claims.
We filed a timely claim against the Federal government, both against the FBI and against the Marshals.
And we filed our case against the Federal government
in both instances in a timely manner.
Our -- and I have this much more clear in writing,
but our pleadings are not deficient. I went through
cause of action one through 20; 21 is moot because
that’s against the private prison. I went through every
cause of action and I showed a minimum of facts that
we’ve alleged, not every fact that we’ve alleged, that
supports each cause of action.
They’re not conclusory.
And about even Defendants like Rose Garza, I
think she’s the Defendant, she’s -- that the Federal attorney is referring to. She -- the information we have
is she was a photographer so she’s a witness to everything. She’s part of either the actual conspiracy to put
my client in jail or she somehow didn’t report what
was going on. She supplied photographs to the prosecution that had nothing to do with anything with my
client, so she is part of this government effort to put

32a

my client in jail. And this I think is clear in our complaint. So other than what I’ve put in writing, I think
that we have all of these issues covered, even the discretionary function exception. Again, I cite to case
law. There is no discretion that a Federal employee
has to violate somebody’s civil rights. It’s just not
there. And so if our allegations meet legal muster, if
they meet Iqbal and Twombly, then we should proceed.
***
THE COURT: And I guess other than the Federal
Defendants, the other two motions are just motions to
dismiss. They’re not motions for summary judgment.
MR. LEACH: That is correct.
MR. GUERRA: Your Honor, the rules do allow a
defendant to supply affidavits even at this stage, and
the Court is permitted to treat them at -- as a motion
for summary judgment. We specifically asked in the
alternative that the motion be viewed in such -THE COURT: Well, you haven’t filed a motion to
dismiss, any alternative motion for summary judgment -MR. GUERRA: Correct, for the United States.
THE COURT: -- is what you’ve done with yours.
MR. GUERRA: Correct, your Honor. The other
thing I wanted to mention, your Honor, is that I do not
believe the Plaintiff is accurate in his statement that
the Defendant was a photographer. The -- Rose Garza
-THE COURT: That the Plaintiff was a -- oh, that
the -MR. GUERRA: I mean, I’m sorry, the Defendant
Rose Garza -THE COURT: Rose Garza.

33a

MR. GUERRA: -- was the photographer. I don’t
know where he got that from or -- but, first of all,
there’s no allegations of that in his pleading. There’s
no mention of that, that she was -- Rose Garza was a
photographer?
MR. FRIEDMAN: Yeah, it’s in there.
MR. GUERRA: Well, I stand corrected then. I
was going to make a statement about that but I don’t
recall that statement. And then I don’t see how that
all ties together. But I do think that there are reasons
why qualified immunity is allowed to be asserted this
early on, before any discovery, the reasons why that
someone whose defense in that regard is denied is allowed to immediately take it up on appeal, it is our
burden associated with it then I think in this case to
allow Plaintiff to keep these individuals involved in
this case with these generic, conclusory allegations of,
oh, they knew that he was innocent and they still prosecuted him anyway. There’s nobody in jail I think that
doesn’t feel like they were innocent or at least make
the allegation that they were innocent. And if we were
to allow every defendant to bring a claim like claims
like these just because they were not convicted, well
then it would be hard -- it would really put a chill on
prosecutions and criminal investigations when we expose, you know, agents and investigative officials to
personal liability for every time an individual is found
not guilty. And I think at best what we have here is
the desire on the part of Plaintiff to find evidence in
support of his claim. He’s throwing out the allegations
and he’s saying let me prove it by finding something
that will support these allegations. But when you look
at whatever he -- the facts that he has now said, what
you have is one thing and two things that have nothing to do with the actual prosecution. And so I just
don’t feel like it’s appropriate to allow a plaintiff to try

34a

to develop a case through discovery that he doesn’t
have at the time he filed his lawsuit.
***
MR. FRIEDMAN: So estoppel against the State
and County for that matter, we know that something
happened at his arrest and people -- the government
agents, Defendants, we don’t know who, some of them
actively conspired to put my client in jail. Some people
knew that he did not commit any crime. We are not
yet at the level where we understand who knew what
or -- I mean, this is a conspiracy. This was what I argue in my brief, that some conspiracies are so intricate, we don’t know where ever chain link goes. We
don’t know that yet. But as far as a Twombly and Iqbal pleading, I am sure we meet that standard. We
have alleged that both under Moody specifically and
both under -- and Labuz specifically, that Moody and
Labuz agreed with other Defendants to violate my client’s rights. We have those allegations in there.
***
THE COURT: Okay, well, on August 30th at
4:00, there’s going to be a telephone conference. You
all -- if anybody wants to attend in the courtroom, they
can. But other than that, if you need to attend by
phone, that’s fine. And the Court will rule on all these
motions one way or another.
MR. FRIEDMAN: All right, appreciate it.
THE COURT: Thank you.
***
(This proceeding was adjourned at 4:53 p.m.)

35a

CERTIFICATION
I certify that the foregoing is a correct transcript from
the electronic sound recording of the proceedings in
the above-entitled matter.

January 27, 2018
TONI HUDSON, TRANSCRIBER

36a
APPENDIX C

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MC ALLEN DIVISION
DANIEL ENRIQUE CANTU, )
)
)
Plaintiff,
)
)
vs.
)
)
JAMES M. MOODY, ET AL., )
)
Defendants.
)
)

CASE NO: 7:15-CV00354
CIVIL
McAllen, Texas
Wednesday,
March 29, 2017
(4:17 p.m. to 4:55
p.m.)

)
TELEPHONIC CONFERENCE
BEFORE THE HONORABLE RICARDO H.
HINOJOSA,
CHIEF UNITED STATES DISTRICT JUDGE

APPEARANCES:

Continued (Next Page)

For Plaintiff:

JEROLD D. FRIEDMAN,
ESQ.
Law Office of Jerold D.
Friedman
17515 Spring-Cypress Road,
Suite C-360
Cypress, TX 77429

Court
Recorder:

Antonio Tijerina

37a

Transcribed by:

Exceptional Reporting Services, Inc.
P.O. Box 18668
Corpus Christi, TX 78480-8668
(361) 949-2988

APPEARANCES
FOR:

(Continued)

Federal
Defendants:

DAVID L. GUERRA, ESQ.
Office of the U.S. Attorney
1701 W. Highway 83,
Suite 600
McAllen, TX 78501

Hidalgo County
and Sheriff
Defendants:

REX N. LEACH, ESQ.
Atlas Hall & Rodriguez, LLP
818 Pecan
McAllen, TX 78501

Daniel Martinez,
Donicio Arigullin,
Alfredo Barrera:

SETH B. DENNIS, ESQ.
Office of the Texas Attorney
General
P. O. Box 12548
Austin, TX 78711-2528

LCS:

RICHARD W. CREWS, JR.,
ESQ.
Hartline Dacus et al.
800 N. Shoreline, Suite 2000
North Tower
Corpus Christi, TX 78401

38a
McAllen, Texas; Wednesday, March 29, 2017;
4:17 p.m.
(Telephonic appearances)
(Call to Order)

THE COURT: Please be seated.
Civil Action Number M-15-354, Daniel Enrique
Cantu versus James M. Moody and others. Can we
have announcements for the parties as to who is here?
MR. FRIEDMAN: Jerold Friedman, attorney for
Plaintiff, Daniel Cantu.
***
MR. GUERRA: And David Guerra, your Honor,
on behalf of the federal defendants.
***
THE COURT: Well, I’m not -- I’m going to the
federal defendants.
MR. LEACH: Okay.
THE COURT: Go ahead.
MR. GUERRA: David Guerra, your Honor, on behalf of the federal defendants. That includes the
United States, and there are seven individual agents
of the Federal Bureau of Investigation who have also
been sued. The federal government was sued, apparently, under -- under the theory that there were state
torts that were committed here, so it would be subjected to the -- the -***
MR. GUERRA: My sense is that the case against
the federal government was brought under the Federal Tort Claims Act and is, therefore, subject to the
constraints of the Federal Tort Claims Act, because
that is the only waiver of sovereign immunity that
would be applicable here. And as to the individuals,

39a

they have been sued for the -- under Bivens for allegedly violating the plaintiff’s constitutional rights under, I think, the Fourth and maybe the Fifth Amendment.
With regard to the federal government claims, the
-- I guess, or actually with regard to all of the claims,
the United States has first presented in its motion the
argument that the -- the pleadings here are so deficient that they don’t pass muster under the Supreme
Court rulings, recently under the Iqbal case, that
identify -- or did away with the former standard that
had said that any reasonable -- any -- that the motion
to dismiss should be denied if there was any -- any
conceivable way that the -- the claims could give rise
to a -- to a cause of action against the defendants. Now
the standard is much higher. There has to be a plausible presentation of facts that are specific enough to
identify the individuals and what they did and what
they did wrong to -- to survive a motion to dismiss.
And we do feel like that all of the allegations contained in this complaint, third amended complaint,
are essentially conclusory allegations that they didn’t
have probable cause. He doesn’t say why. Now we’re
talking a little bit more; he’s -- it’s basically alleging
that the arrest itself, the officers should have known
that there -¬that it was improper. But -- but, again,
it’s a conclusion as opposed to the explanation of some
of the facts that would have been -- would have allowed someone to conclude that these pleadings do
give rise to a cause of action or could give rise to a
cause of action.
It appears more likely that what’s going on here is
that there is a fishing expedition on the part of the
plaintiff to throw out the allegations, and then he
hopes to find in the course of maybe discovery something that would allow him to actually contend that

40a

there is the evidence in support of the claims. But -but in the absence of anything other than the generic
allegations that we have here, we don’t feel that the - that the pleadings are sufficient, particularly with
regard to the type of claims that are brought against
the individuals, because the -- it’s clear that under -under Bivens you cannot be vicariously liable. You
have to have done something yourself that violated
someone’s civil rights. And here they’re just labeled
as, you know, “the agents did this.” He doesn’t say who
did what, and we don’t know if any of them participated, and, in fact, we -- in our response we deny that
they actually participated in the actual arrest. Mr.
Moody, for example, all he did was -- was arrest one of
the other individuals in the case, not this particular
individual, at the time of the arrest. And, so -- and
there’s -- there is a woman identified, one of the agents
that’s identified, that we don’t exactly know, because
he doesn’t say, what she did at all. There’s no allegations that she did anything. I’m not talking about Labuz, but the other individual.
The point being that the allegations are so deficient that they shouldn’t -- the defendants are not in
a position where they -- they’re even capable of responding and defending and proving why they didn’t
do this, because we don’t know --it’s generic allegations. So, now, that’s as to the pleadings deficiency.
As to the merits of the case, we do feel like limitations are applicable here as to all these defendants.
We most specifically (indiscernible) Mr. Moody, because Mr. Moody was sued in -- was the only one
named originally. Mr. Moody was named as a defendant, and we responded, and he has a declaration attached to our motion where he identifies the only
thing he did in this whole case early on was he was
there at the scene but wasn’t involved in the arrest of

41a

this plaintiff. He did supply an affidavit in a criminal
complaint that had one misstatement that had no
bearing on anything, as it turns out, because this was
presented to a grand jury almost immediately, without that misstatement, by another individual. So, Mr.
Moody’s involvement ended more than two years prior
to the time this suit was -- was brought, and -- and -but that’s also true of really all of the people involved
here with regard to the false arrest and false imprisonment.
For the same reason the Court ruled as to the
other defendants that were identified in Docket Number 58, we feel like the -- that that would preclude any
false arrest or false imprisonment case against the
federal agents here for those two claims.
And with regard to the allegations that there was
--there was a wrongful prosecution here, well, I guess
the main argument on that with regard to individuals
is that the qualified immunity defense would apply if
there was any -- he has to show that we knew or
should have known that what we were doing at that
time was violating -- was in violation of someone’s
rights. And given the information available to all the
-- again, hard to tell which ones he’s talking about because he didn’t identify who knew what and how they
were involved and some of the -- some of them were
supervisors that weren’t even in the country at the
time that this -- this thing occurred. But, anyway, he
has to -- he has to -- he has to produce evidence of some
sort that the individuals that he’s sued under Bivens
knew that this was a -- was an improper arrest, knew
that this individual was not guilty of the crimes that
he was being charged, and nonetheless continued to
prosecute him throughout the trial. And, your Honor,

42a

I just --the absence of any evidence and just the generic allegations, I don’t think that they would survive
a qualified immunity assertion at this point.
The -- with regard to the defendant, the federal
government, I think as I mentioned earlier, the discretionary function exception would preclude liability
under that scenario -- for wrongful prosecution because the decision to prosecute involves the type of
discretionary function that the Court’s intended to insulate from -- from potential liability on the part of the
Government, that’s why it’s identified, and there are
some cases that are cited in the motion that discuss
the -- the applicability of discretionary function. There
was an opinion by Judge Atlas, I believe, in 2015,
where she essentially discusses in a very similar context the allegations that the Government wrongfully
prosecuted an individual who was found not guilty,
and the Court did hold that the discretionary function
exception to the FTCA did apply.
So, in sum, your Honor, we feel like that the -- for
the same reasons that the Court ruled earlier, that the
-- that the limitations applied also apply to the federal
defendants in this case, and, in addition, we feel like
the -- the allegations here are not specific enough as
to these individuals to survive the motion to dismiss
and that the -- the qualified immunity doctrine is certainly applicable and strong enough in this case here
to override the rather broad allegations that these individuals somehow must have known that this was an
improper prosecution, that this man was innocent,
and that he, nonetheless, was -- was wrongfully prosecuted.
THE COURT: Okay. Is there anything else from
anyone on that issue?

43a

MR. FRIEDMAN: For the plaintiff, yes. This is
Jerry Friedman.
THE COURT: Sure.
MR. FRIEDMAN: Mr. Guerra indicates that
there is a limitations problem. There was no limitations problem. The claims were all timely filed, both
against the FBI and later against the U.S. Marshals.
He argues about the discretionary function, but
there’s applicable case law which I cited that says
there is no discretionary function to violate a person’s
civil rights in this way to manufacture probable cause
and then to have them arrested.
THE COURT: Well, but you just say that, but
there is nothing to indicate that anything was manufactured other than it’s a claim that really doesn’t really survive Iqbal and Twombly other than to just say,
“I want to say that they manufactured something.”
MR. FRIEDMAN: Well, your Honor, I -- I put in
there that -THE COURT: I mean, there is no way to defend
yourself on this other than just to say something was
manufactured. Well, the only thing that was possibly
a mistake was corrected quickly with regards to the
issue of Mr. Moody saying something with regards to
what he had observed based on what he heard from
somebody else, but that’s the only thing that anybody
has indicated that anybody just made up. And he has
an explanation as to how this happened, and the minute he found out it was an error, it was corrected; it
wasn’t relied on by anybody, wasn’t used. And, so,
therefore, the idea that somehow because I just want
to go out and say all of a sudden that everything’s
manufactured and this was horrible and this was
mean and it was lies, but without identifying something, it’s really -- it really gets to the point where you

44a

can’t really even survive the Iqbal Twombly because
it’s generalities of, “I didn’t like it and I was acquitted,
and, so, therefore, that must mean something was fabricated.”
MR. FRIEDMAN: Yeah, but, actually, your
Honor -THE COURT: And I understand the defendant’s
-- the plaintiff’s viewpoint with regards to, “I was acquitted,” but it takes more than just being acquitted
to, therefore, say, “My constitutional rights were violated and things were made up and they lied about
things.” And I think that we have statute of limitations issues, we have Iqbal-Twombly issues with this,
and then, even if we got to the point of the discretionary function, we also have that issue.
MR. FRIEDMAN: Yeah, there’s more -THE COURT: And certainly with qualified immunity, that just saying they acted unconstitutionally
but not indicating how they could possibly have acted
unconstitutionally or with some constitutional violation, other than the fact that, “Because I was acquitted, therefore, they must have violated some kind of
constitutional right that I had.” And this is difficult
when you have a grand jury indictment and you have
third parties issuing warrants or whatever else was
done by other third -- independent third parties to,
therefore, say, “There must have been something
wrong,” without any identification of what it was that
was wrong other than the -- the Moody statement,
which was really corrected quickly the minute that
was found to be incorrect.
MR. FRIEDMAN: So, your Honor, I think there’s
more substance there in the pleading, because not
only was the Moody statement wrong, but it also
roughly matched the statement by the federal officer

45a

Labuz. And, so, Labuz made that material misstatement and never corrected it, and it seems to me that
Moody then copied that statement, which suggests a
conspiracy when both of these -THE COURT: Yeah, but -- but it was corrected -MR. FRIEDMAN: -- affidavits are put -THE COURT: It was corrected by Mr. -MR. FRIEDMAN: -- are put together.
THE COURT: Mr. Moody corrected it. I mean, it
was done. It was before anything was used by -- by it,
and really the minute that he found out this was in
error it was corrected. And that -- that -- that that -MR. FRIEDMAN: I don’t believe that’s correct,
your Honor. I don’t believe it was corrected the minute
he figured it out.
THE COURT: Well, soon enough.
MR. FRIEDMAN: And if that was -- and if that
was the case, if it was corrected, then that should have
been presented to the grand jury, but it wasn’t.
THE COURT: But it -MR. GUERRA: Well, the error wasn’t presented.
THE COURT: But there was never -- the grand
jury never even heard the mistaken statement.
MR. GUERRA: Exactly.
THE COURT: So, this -- what would you tell
them? “Oh, by the way, there was a mistake and you
didn’t hear about it, but now we’re going to repeat it
to you”?
MR. FRIEDMAN: But if -- but if the -- if Labuz
said that these things happened which didn’t happen,
that my -THE COURT: It’s not “these things.” It’s one
thing.

46a

--

MR. FRIEDMAN: -- that my client actually took

THE COURT: It is one thing that was said. And
it was not presented to the -MR. FRIEDMAN: And it was -- and it -THE COURT: It was not presented to the grand
jury. The grand jury did not rely on this at all. Nobody
relied on it.
MR. FRIEDMAN: It was presented -- it was presented by Labuz.
MR. GUERRA: No, your Honor. That’s not correct.
THE COURT: No, it was not.
MR. GUERRA: That’s not correct.
MR. FRIEDMAN: The information I have is it
was.
THE COURT: Who -MR. FRIEDMAN: I don’t know any information
to the contrary, because there were two statements -THE COURT: Who gave you that information -MR. FRIEDMAN: -- two affidavits.
THE COURT: -- and where can you point to
something that it was? And if you -- if you find that
information and want to file a motion to reconsider, do
that.
MR. FRIEDMAN: Okay.
THE COURT: But if you can give me that information -- but there is nothing in this file that indicates
that it was presented to any -- by anybody to the grand
jury. And if you have that information, I will be glad
to look at a motion to reconsider.
MR. FRIEDMAN: Okay.

47a

MR. GUERRA: And, your Honor, Labuz in her
declaration specifically denies that that was presented to the grand jury. And, again, what she said -THE COURT: Well, I know. So, I -- I have that
information, that it wasn’t presented to the grand
jury. If he has some fact that somehow can prove that
that was a false, so it will -- we can consider it. But
right now there is nothing to indicate that this was
presented to the grand jury other than the plaintiff’s
attorney’s statement that has just been said that, “I
have” -- “I think it was,” or that, “I have information
that it is but cannot point to any information that’s on
this file here that indicates that it was.” And, but I’m
not cutting him off from it if he has it. Please present
it to me, and I’ll reconsider here.
MR. FRIEDMAN: Okay.
THE COURT: The Court -- the Court is ready to
go ahead and rule on the motion of the federal defendants. For the same reasons as we’ve -***
THE COURT: And with regards to the statute of
limitations, for the same reasons I did with regards to
the state defendants, I am going to find that the motion to dismiss should be granted with regards to the
statute of limitations with regards to those particular
claims, and with regards to any other claim, the
Court’s also going to find that the defense of qualified
immunity applies here. There has been no constitutional violation that would have clearly been a constitutional violation by any federal law enforcement official under Bivens that would indicate that there was
an issue here as to any of the actions that they took.
With regards to if there was any FTCA claims that
would survive, if there were, but there really aren’t, it

48a

would certainly appear to the Court that the discretionary function would apply here and that those
cases -- those causes of action should also be dismissed. And, so, it’s based on statute of limitations,
based on Iqbal and Twombly, and based on qualified
immunity with regards to any of the federal defendants, there should be a dismissal of the causes of action against them.
***
(Proceeding was adjourned at 4:55 p.m.)
CERTIFICATION
I certify that the foregoing is a correct transcript from
the electronic sound recording of the proceedings in
the above-entitled matter.

April 5, 2017
TONI HUDSON, TRANSCRIBER

49a
APPENDIX D

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MC ALLEN DIVISION
DANIEL ENRIQUE
CANTU,
Plaintiff,
vs.
JAMES M MOODY,
ET AL.,
Defendants.

) CASE NO: 7:15-CV) 00354
CIVIL
)
)
McAllen, Texas
)
) Wednesday, October 11,
)
2017
)
(4:04 p.m. to 4:30 p.m.)
)

TELEPHONIC MOTION HEARING
BEFORE THE HONORABLE RICARDO H.
HINOJOSA,
CHIEF UNITED STATES DISTRICT JUDGE

APPEARANCES: Continued (Next Page)
For Plaintiff:

Court
Recorder:
Transcribed by:

JEROLD D. FRIEDMAN, ESQ.
Law Office of Jerold D.
Friedman
17515 Spring-Cypress Road,
Suite C-360
Cypress, TX 77429
Antonio E. Tijerina
Exceptional Reporting Services,
Inc.
P.O. Box 18668

50a

Corpus Christi, TX 78480-8668
(361) 949-2988
APPEARANCES
FOR:

(Continued)

Federal
Defendants:

DAVID L. GUERRA, ESQ.
Office of the U.S. Attorney
1701 W. Highway 83,
Suite 600
McAllen, TX 78501

Hidalgo County
and Sheriff
Defendants:

REX N. LEACH, ESQ.
Atlas Hall & Rodriguez, LLP
818 Pecan
McAllen, TX 78501

Daniel Martinez, SETH B. DENNIS, ESQ.
Donicio Arigullin, Office of the Texas Attorney
Alfredo Barrera: General
P. O. Box 12548
Austin, TX 78711-2528
LCS:

RICHARD W. CREWS, JR.,
ESQ.
Hartline Dacus et al.
800 N. Shoreline, Suite 2000
North Tower
Corpus Christi, TX 78401

51a
McAllen, Texas; Wednesday, October 11, 2017;
4:04 p.m.
(Call to order)

THE COURT: Civil action Number M-15-354,
Daniel Enrique Cantu versus James M. Moody and
others. Can we have announcements for the parties
as to who’s present?
MR. FRIEDMAN: Jerold Friedman for Plaintiff,
Daniel Cantu.
MR. GUERRA: David Guerra on behalf of the
Federal Defendants.
***
THE COURT: Okay, the Court had already
granted summary judgment with regards to the State
Defendants, as well as the Federal Defendants. That
leaves the County Defendants as well as LCS as far as
what’s left with regards to this case. And I had explained the reasons and the rulings for the Court on
that. There is a motion on the part of the Plaintiffs
with regards to reconsideration with regards to that - those rulings of the Court. And I guess I’m having a
hard time understanding what the motion for reconsideration, what the purpose of it. What am I supposed to reconsider?
MR. FRIEDMAN: Just a few things, your Honor.
This is Jerry Friedman. That the extrinsic evidence
was improper at this early stage. We have not gone
through discovery and your rulings were -- for summary judgment were largely based -THE COURT: My rulings were based strictly on
the complaint itself and, frankly, on statute of limitations grounds.
***
MR. FRIEDMAN: * * *

52a

So this would be the first amendment filed based
on pleading defects. And I would ask to clean up the
complaint, dismiss the parties that we have a remote
claim against, let me file a fourth amended complaint.
And I sincerely don’t want to waste my time, the
Court’s time, or any of the Defendants’ time, but my
client was in jail on a false arrest for more than two
years and that wrong -THE COURT: He was in jail -MR. FRIEDMAN: -- has to be righted.
THE COURT: -- for during that period of time as
a result of a Grand Jury indictment that is totally independent of the actions of any of these people.
MR. FRIEDMAN: And that Grand Jury indictment -- your Honor, this is Jerry Friedman again.
That Grand Jury indictment, I alleged, was tainted by
-THE COURT: Well, the -MR. FRIEDMAN: -- and I -- and we have evidence of -THE COURT: -- alleged tainting was quite clear
that it’s -- you cannot even allege that the Grand Jury
was tainted with that because all -- the Grand Jury
was told that there had been an error and it was corrected.
MR. FRIEDMAN: I believe that’s false, your
Honor, and that’s not in the complaint, that’s not what
we have in the complaint, and that’s not -THE COURT: So what is it that you would complain about? I mean, none of us would possibly know
what you would be complaining about the Grand Jury
indictment. You made it about the Moody affidavit,

53a

which was totally corrected before the Grand Jury indictment and before the Grand Jury. And so what
would you be complaining about?
MR. FRIEDMAN: Yeah, that has been corrected
before the Grand Jury, mere (phonetic) facts that are
not in evidence. And I would just want to again dismiss the irrelevant parties -THE COURT: They have presented information
but you have presented nothing to indicate that that
information is incorrect.
MR. FRIEDMAN: I submitted in this -THE COURT: In fact, I think you’ve ordered copies of everything here, have you not? And do you have
some evidence that somehow that is -- it’s not even evidence. You can’t even make the allegation because
there is no such allegation to the contrary.
MR. GUERRA: David Guerra, your Honor, on
behalf of the Federal Defendants. And I think that’s
the -- that’s exactly the problem here that we have is
just speculation, just allegations, just claims not supported in any way by any evidence that would be considered conflicting. We don’t have -- even though this
is again the fifth time we’ve had a -there’s already
been five prior pleadings. There’s a request now to
come in with a -- with what would be I guess there’s
been four and then the original suit, so this may be
the fifth time that -THE COURT: This would be the fifth time.
MR. GUERRA: -- they’re seeking a -- and in all
that time, we haven’t seen a declaration, an affidavit
from the Plaintiff here that would -- that even that
might raise a fact issue, or even if it wasn’t accurate
or true, we still haven’t seen -- and even if it countered
the what is known to be about the case and facts and
details that are without dispute. And so I think we’re

54a

looking at a situation where he’s again done a good job
of trying to stir the waters, but you shouldn’t be allowed to go find a case after you file it. You’ve got to
have something that supports a -- especially in a situation where countervailing evidence has been presented indicating that the allegations are untrue. At
that point, I don’t think a defendant can just say, well,
I have my pleadings because we have argued limitations which hasn’t been addressed by the way in the
motion to reconsider, the limitations issue wasn’t -didn’t produce anything that was new. And I think on
the motions along this line, you’re supposed to -- you
just can’t ask the judge to reconsider because you
think he ruled wrongly. You have to some grounds for
doing so. And everything that’s been asserted has
been already previously asserted in the case I believe.
So the bottom line I believe, your Honor, is that we are
talking about a situation in which the Plaintiff after
all this time is still trying to find something, but has
done nothing but make allegations and has not produced any evidence that would be in support of -- that
would counter the facts that we already know about
the case.
THE COURT: Well, first of all, we have the statute of limitations problem. But nevertheless, what -who were you willing to say that you’re going to not
proceed against?
***
THE COURT: Right, but there was a Grand Jury
indictment and there was nothing to indicate that
there was a problem with regards to the Grand Jury
indictment.
MR. FRIEDMAN: Your Honor, this is Jerry
Friedman again. Your Honor, on that Grand Jury indictment, Moody did submit an affidavit that --

55a

THE COURT: Right, but you -- but the -- what
has been presented, which you have no argument
other than I just want to say it, that there is any evidence whatsoever that that wasn’t corrected before
the Grand Jury. You have presented nothing that indicates that that did not occur.
MR. FRIEDMAN: So, your Honor, I -- this is
Jerry Friedman again. I don’t mean to test your patience, I’m sorry. But the -- what Mr. Moody testified
to recently in his affidavit, said that he didn’t -- his
complaint was not presented to the Grand Jury. And
yet on one of the attachments I provided to you has an
Exhibit A sticker and it looks to me like that was in
fact presented to the Grand Jury. So it looks to me like
the affidavit of Moody is improper and it should be -and it’s wrong for that reason. And further because
this motion should have been a motion to dismiss and
external -- and extrinsic evidence should not have
been considered, then Moody’s affidavit saying that he
wasn’t involved is irrelevant.
THE COURT: Mr. Guerra, did you want to respond to that?
MR. GUERRA: I’m sorry, did you ask if the government wants, your Honor?
THE COURT: Yes.
MR. GUERRA: Your Honor, David Guerra on behalf of Moody and the Federal Defendants. What Mr.
Friedman is referring to is on some of the dockets, on
some of the -- on a docket (indiscernible) some sort
there was a reference to
Mr. Moody. It’s pretty clear that that reference
arises out of the fact that at one point, the case originally began under -- with a -- not the Grand Jury but
I think it was on an indictment -- on a criminal complaint, I’m sorry, on a criminal complaint. And at that

56a

point it appears that that was never corrected as the - when they listed the agency involved, it said “Federal
Bureau of Investigation, James Moody.” But again,
that arose very early on. There were four -- there were
five defendants in the case. And he’s -- and I don’t
think that the Plaintiff, Mr. Cantu, has in any way
linked that with this particular Defendant, other than
the fact that the name was listed as the agency, which
of course would be the case either way if it began under a criminal complaint. And so I don’t think that
raises a -- that -- what he’s doing here is what often
criminal defense lawyers do in trying to make it look
like something is significant that’s not. The fact that
at one point on one document early on in the indictment here that there was a listing -THE COURT: Well, it’s not the -MR. GUERRA: -- for the FBI that included -THE COURT: -- indictment. The indictment had
not occurred, according to you. It was -MR. GUERRA: Right.
THE COURT: -- a criminal complaint.
MR. GUERRA: I’m sorry, I meant the complaint.
That would -- that does not raise a fact issue in light
of the strength of the statement of Mr. Moody that he
had zero participation in the Grand Jury proceedings
and in fact had zero participation in the trial proceedings, that he had -- that any mistake that he made was
not presented with -- to the Grand Jury because his
testimony was in no way used as part of the Grand
Jury proceedings. And so I think that the fact that
the agency listed -- included the Federal Bureau of Investigations and his name was listed there and the
criminal complaint number listed that -- to that
doesn’t change the fact that it went through a Grand

57a

Jury proceeding that was unrelated to the initial mistake that Mr. Moody had made.
***
THE COURT:
***
The Federal Defendants’ motions for summary
judgment for -- not for summary judgment, their motions to dismiss all have already been granted. On the
Federal Defendants, they did have in the alternative
a motion for summary judgment. And frankly on summary judgment, there was no evidence to the contrary.
However, what -- the only thing I’ll do for you is you
can go ahead and explain in a better way, file something that indicates to you (phonetic) why you -- what
it is you’re trying to say that you have a right to file a
fourth amended complaint.
***
THE COURT: -- today has granted the summary
judgment -- the motions to dismiss of the State Defendants, the County Defendants. I’ve already done
that with regards to the Federal Defendants. You
want to be left open because you say you want to file
a fourth amended complaint. But you’re going to have
to give the Court more information as to why you
should be allowed to file a fourth amended complaint
at this point, other than just some verbal statement at
this point. You can file something to that effect within
a week from today indicating to the Court what it is
that you would be doing with regards to a fourth
amended complaint here that you’ve convinced the
Court that somehow the Court should not continue
with the dismissal that it already has done with regards to the Federal Defendants. And also whether -MR. FRIEDMAN: This is Jerry --

58a

THE COURT: -- it would convince the Court also
with regards to LCS here.
MR. FRIEDMAN: This is Jerry Friedman. I
have the answer for that, your Honor, in my reply to THE COURT: I don’t think that your answer is
sufficient. I think you’re going to have to be clearer to
the Court as to what it is that is -- that would in any
way indicate that you have anything different to allege here than you’ve already alleged in the third
amended complaint.
MR. FRIEDMAN: Your Honor, I’m grateful for a
week to file that document.
THE COURT: Okay, and if the Court needs a
hearing besides what we’ve already had, I will certainly let you know. But -- and what you need to do is
you really need to amend your motion to leave to file
a proposed complaint with better information than
you have now. In fact, what I’m asking you to do is
attach a proposed complaint with your motion for
leave. It’s very difficult to grant somebody a motion to
leave without really seeing the complaint and having
all of us, first the Court itself and then the other parties, try to determine what would be added here that
hasn’t already been put in a complaint beforehand
that really has any basis whatsoever.
MR. FRIEDMAN: I understand, your Honor.
THE COURT: Does everybody else understand
that?
MR. SPEAKER: Yes, your Honor.
MR. SPEAKER: Yes, your Honor.
THE COURT: Okay, and if anybody wants to respond to it, you can do so within ten days after he files

59a

it. If you all don’t have anything else, you all can be
excused. Thank you all.
***
(This proceeding was adjourned at 4:30 p.m.)

CERTIFICATION
I certify that the foregoing is a correct transcript from
the electronic sound recording of the proceedings in
the above-entitled matter.

January 27, 2018
TONI HUDSON, TRANSCRIBER

60a
APPENDIX E

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
MC ALLEN DIVISION
DANIEL ENRIQUE
CANTU,
Plaintiff,
vs.
JAMES M MOODY,
ET AL.,
Defendants.

) CASE NO: 7:15-CV) 00354
CIVIL
)
)
McAllen, Texas
)
) Wednesday, December 13,
)
2017
)
(4:05 p.m. to 4:11 p.m.)
)

HEARING ON MOTION TO AMEND COMPLAINT
BEFORE THE HONORABLE RICARDO H.
HINOJOSA,
CHIEF UNITED STATES DISTRICT JUDGE

APPEARANCES: Continued (Next Page)
For Plaintiff:

Court
Recorder:
Transcribed by:

JEROLD D. FRIEDMAN, ESQ.
Law Office of Jerold D.
Friedman
17515 Spring-Cypress Road,
Suite C-360
Cypress, TX 77429
Antonio E. Tijerina
Exceptional Reporting Services,
Inc.
P.O. Box 18668

61a

Corpus Christi, TX 78480-8668
(361) 949-2988
APPEARANCES
FOR:

(Continued)

Federal
Defendants:

DAVID L. GUERRA, ESQ.
Office of the U.S. Attorney
1701 W. Highway 83,
Suite 600
McAllen, TX 78501

Hidalgo County
and Sheriff
Defendants:

REX N. LEACH, ESQ.
Atlas Hall & Rodriguez, LLP
818 Pecan
McAllen, TX 78501

Daniel Martinez, SETH B. DENNIS, ESQ.
Donicio Arigullin, Office of the Texas Attorney
Alfredo Barrera: General
P. O. Box 12548
Austin, TX 78711-2528
LCS:

RICHARD W. CREWS, JR.,
ESQ.
Hartline Dacus et al.
800 N. Shoreline, Suite 2000
North Tower
Corpus Christi, TX 78401

62a
McAllen, Texas; Wednesday, December 13, 2017;
4:05 p.m.
(Call to order)

THE COURT: This is Civil Action Number M15-354, Daniel Enrique Cantu versus James M. Moody
and others. Can we -- some people are here in person,
others are on the phone, so can we have announcements for the parties first, those that are here in person?
***
MR. GUERRA: David Guerra, your Honor, with
the U. S. Attorney’s Office on behalf of the seven
named-Federal Defendants and the United States.
THE COURT: And those on the phone?
MR. FRIEDMAN: Jerold Friedman for Plaintiff.
***
THE COURT: * * *
I will note that that leaves the fourth amended -the motion for leave to file the fourth amended complaint. The last several hearings, the Court has considered motions to dismiss and/or for summary judgment filed by Defendants. These motions have been
revised to address prior amendments of the Plaintiff
because the -- he’s already -- there’s already been more
than one amendment to the original pleadings. The
Court considered the pleadings, the motions on file,
the responses and replies, as well as the arguments of
the counsel on all sides here. The Court had granted
those motions, except for the one on LCS which is no
longer, it is now moot because of the fact that they
have settled. And I had granted the motions on the
grounds asserted, mainly because of limitations, because of qualified immunity, because there was no recognized such claim, or simply because the Plaintiff

63a

failed to state a claim for relief. I stated those reasons
on the record.
The Plaintiff requested the Court revisit its rulings, which again after consideration of the pleadings
on file, the motions, responses, and replies, the Court
refused to do so and changed its opinion as to what it
had already ruled on.
The Plaintiff now wishes to amend the complaint
for the firth time here -- fourth time here which as it’s
called which would make it the fifth here, and perhaps
the sixth overall. I’ve granted the motion to dismiss
LCS, so that matter is no longer before the Court. The
Plaintiff indicated at the last hearing he would no
longer urge claims against the County Defendants,
claims against the State Department, save Defendant
Barrera, that he would drop bystander claims and
claims accruing at the time of the arrest. It would appear to the Court that only the malicious prosecution
claims and the claims against LCS would have been
urged -- would -- and the LCS obviously would not be
urged anymore because that’s over. Despite Plaintiff’s
representation at the last hearing, the proposed
amended complaint adds more than that. I have seen
the motions, I have seen the responses on this one motion that’s pending before the Court. Does anybody
need to add anything else to this?
MR. GUERRA: No, your Honor.
***
THE COURT: Okay, well, nevertheless, the
Court has already dismissed the malicious prosecution claims. The Court is of the belief probable cause
to arrest existed, an independent Grand Jury indicted, and a case with sufficient evidence to go to a
jury was presented. There is no evidence to support
Plaintiff’s claim that the prosecution was a result of

64a

fabricated evidence. The Court continues to make the
following and makes the following rules.
Despite the liberal standard applied to motions for
leave to amend, given this would be the fifth pleading,
actually sixth after an early voluntary dismissal of a
predecessor action in M-15-43, given the dismissals of
virtually of all the claims, whether upon limitations,
qualified immunity, or general failure to state a claim
grounds, given the representation that Plaintiff was
abandoning certain claims, and given the amendment, present claims already addressed in the prior
motions, the post-dismissal attempt at reviving the
claims should be and is hereby denied. And I therefore believe that all the claims of the action should be
dismissed, have, and will continue to be dismissed.
And all the claims have been disposed of as far as the
Court is concerned and, therefore, this action should
be dismissed and there should be an order to that effect. If you all don’t have anything else, you all can be
excused. Thank you all very much.
MR. LEACH: Thank you, your Honor.
MR. FRIEDMAN: This is Jerry Friedman. Under Rule 56, motion for summary judgment, could you
have a written opinion for those Defendants who were
dismissed by summary judgment?
THE COURT: There will be a written order of
dismissal, a judgment, but the opinion will be what
I’ve said before on the record.
* * *.
(This proceeding was adjourned at 4:11 p.m.)

65a

CERTIFICATION
I certify that the foregoing is a correct transcript from
the electronic sound recording of the proceedings in
the above-entitled matter.

January 27, 2018
TONI HUDSON, TRANSCRIBER

66a
APPENDIX F

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
McALLEN DIVISION
DANIEL ENRIQUE
CANTU,
Plaintiff,
VS.
JAMES M MOODY,
et al,
Defendants.

§
§

§
§
§ CIVIL ACTION NO.
7:15-CV-354
§
§
§
§

ORDER GRANTING MOTION OF FEDERAL
DEFENDANTS TO DISMISS PLAINTIFF’S THIRD
AMENDED COMPLAINT AND/OR
ALTERNATIVELY FOR SUMMARY JUDGMENT ON
ALL CLAIMS AGAINST FEDERAL DEFENDANTS
IN PLAINTIFF’S THIRD AMENDED COMPLAINT

On the 29th day of October, 2017, came on to be
heard the Motion of Defendants United America,
James M. Moody, Erin LaBuz (formerly Erin Hayne),
Nathan Husak, Christopher Lee, David De Los Santos, Ryan Porter and Rosa Garza to Dismiss Plaintiff’s
Third Amended Complaint and/or for Summary Judgment on all claims stated against these Defendants in
the Third Amended Complaint (Docket Entry Number
60), and the Court, after having reviewed the Motion,
the pleadings on file, and the arguments of counsel,
was of the opinion that said Motion should be granted
for the reasons stated on the record. The Court heard
various arguments on the pleadings at hearings on
May 4, 2016, on July 7, 2016, March 29, 2017, October

67a

11, 2017, and December 13, 2017. The Court notes
that Plaintiff was granted leave multiple times to replead in this action and had filed a similar action previously in this Court, M-15-043 (voluntarily dismissed). The Court did consider evidence presented
outside the pleadings and available for a considerable
period of time to all parties. The Court, therefore,
treated Defendants’ Motion as one for summary judgment under Rule 56. See Isquith v. Middle South Utilities Inc., 847 F.2d 186 (5th Cir.1988) cert. denied 488
U.S. 926, 109 S.Ct. 310 (1988). The Court agreed with
Defendants that the defenses of sovereign immunity,
limitations, qualified immunity, and failure to state a
claim required dismissal of and/or judgment upon
Plaintiff’s causes of action asserted against these Defendants. It is, therefore,
ORDERED, ADJUDGED AND DECREED that
Defendants’ Motion is hereby GRANTED, and Plaintiff’s causes of action against Defendants United
States of America, James M. Moody, Erin LaBuz (formerly Erin Hayne), Nathan Husak, Christopher Lee,
David De Los Santos, Ryan Porter and Rosa Garza are
hereby DISMISSED.
DONE on this _29th day of March, 2018, at
McAllen, Texas.
_(handwritten signature)__
Ricardo H. Hinojosa
UNITED STATES
DISTRICT JUDGE

68a
APPENDIX G

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-40434
DANIEL ENRIQUE CANTÚ,
Plaintiff-Appellant
v.

JAMES M. MOODY; ERIN S. LABUZ, also known
as Erin S. Hayne; NATHAN HUSAK; DAVID DE
LOS SANTOS; RYAN PORTER; ROSA LEE
GARZA; ALFREDO BARRERA; UNITED STATES
OF AMERICA; CHRISTOPHER LEE,
Defendants-Appellees
Appeal from the United States District Court
for the Southern District of Texas

ON PETITION FOR REHEARING EN BANC
(Opinion ______, 5 Cir., _____ , ______ F.3d ________ )
Before CLEMENT, GRAVES, and OLDHAM, Circuit
Judges.
PER CURIAM:

69a

(✓)

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular active service of the court having requested that
the court be polled on Rehearing En Banc
(FED. R. APP. P. and 5TH CIR. R. 35), the
Petition for Rehearing En Banc is DENIED.

( )

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition for Panel Rehearing is DENIED. The
court having been polled at the request of one
of the members of the court and a majority of
the judges who are in regular active service
and not disqualified not having voted in favor
(FED. R. APP. P. and 5TH CIR. R. 35), the Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
(handwritten signature)_______
UNITED STATES CIRCUIT JUDGE

